     Department of Homeland Security




         U.S. Coast Guard’s Acquisition of the
        Sentinel Class – Fast Response Cutter




OIG-12-68 (Revised)                              August 2012

August 31, 2012

                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                       August 31, 2012
                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses the effectiveness of the United States Coast Guard's Sentinel
Class - Fast Response Cutter acquisition. It is based on interviews with employees and
officials of relevant agencies and institutions, direct observations, and a review of
applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                      Anne L. Richards
                                      Assistant Inspector General for Audits
Table of Contents/Abbreviations
Executive Summary ........................................................................................................... 1


Background ........................................................................................................................ 2 


Results of Audit ................................................................................................................. 4 


     The Coast Guard’s Oversight of the Fast Response Cutter Contract ........................... 4 


     The Coast Guard’s Schedule-Driven Procurement Strategy ........................................ 6 


Recommendations ............................................................................................................ 13


Management Comments and OIG Analysis .................................................................... 13 


Appendices
     Appendix A:           Purpose, Scope, and Methodology ..................................................... 18 

     Appendix B:           Management Comments to the Draft Report ..................................... 20 

     Appendix C:           Comparison of Island-Class Patrol Boat and Fast Response Cutter .. 23 

     Appendix D:           Major Contributors to This Report .................................................... 24 

     Appendix E:           Report Distribution ............................................................................ 25 


Abbreviations
     DHS                   Department of Homeland Security 

     DOT&E                 Director, Operational Test and Evaluation

     FRC                   Fast Response Cutter 

     OIG                   Office of Inspector General 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                   In September 2008, the Coast Guard awarded Bollinger Shipyards,
                   LLC, an $88.2 million fixed-price contract for the detailed design
                   and construction of the lead Sentinel Class Fast Response Cutter.
                   The contract contains six options to build a maximum of 34
                   cutters, worth up to an estimated $1.5 billion. As of September
                   2011, the Coast Guard had awarded three contract options for
                   12 cutters, with a total contract price of $597.3 million. We
                   performed this audit to determine whether the Coast Guard’s
                   oversight of the Fast Response Cutter acquisition ensures that the
                   provisions of the contract reflect the Coast Guard’s stated
                   operational requirements and the contractor is meeting the
                   contract’s provisions.

                   The Coast Guard’s oversight of the Fast Response Cutter
                   acquisition has helped ensure that the provisions of the contract
                   reflect the Coast Guard’s operational requirements and that the
                   contractor is meeting the contract’s provisions. However, the
                   Coast Guard has executed an aggressive, schedule-driven strategy
                   that allowed construction of the Fast Response Cutters to start
                   before operational, design, and technical risks were resolved.
                   Consequently, six cutters under construction required rework that
                   resulted in at least 270 days of schedule delays for each cutter and
                   a total cost increase of $6.9 million for the acquisition. This
                   aggressive acquisition strategy also allowed the Coast Guard to
                   procure 12 Fast Response Cutters before testing the lead cutter in
                   actual operations. It is uncertain whether the Fast Response Cutter
                   will perform as intended until it completes operational test and
                   evaluation in actual maritime environments.

                   If operational test and evaluation on the lead Fast Response Cutter
                   reveals deficiencies, the Fast Response Cutters may incur
                   additional costly rework and delays, or the Coast Guard may have
                   to accept Fast Response Cutters that do not fully meet its mission
                   requirements. This may hinder the Coast Guard’s ability to fill the
                   critical shortages in its patrol boat fleet. The Coast Guard
                   concurred with two recommendations and partially concurred with
                   the remaining three recommendations to improve this and future
                   acquisitions.

          U.S. Coast Guard’s Acquisition of the Sentinel Class – Fast Response Cutter

                                            Page 1
Background
                 The U.S. Coast Guard is acquiring the Sentinel Class Fast Response
                 Cutter (FRC) to fill its critical need for additional patrol boats and
                 to replace the aging Island-class 110-foot patrol boats. The FRC is
                 intended to perform multiple missions, including search and
                 rescue, migrant interdiction, drug interdiction, and law enforcement.
                 It is the first major acquisition to be brought under the direct
                 management of the Coast Guard after being formerly contracted
                 through the Deepwater program. Deepwater was a major
                 integrated systems acquisition program, administered by a lead
                 systems integrator, designed to replace, modernize, and sustain the
                 Coast Guard’s aging fleet of ships and aircraft. The Coast Guard
                 elected to bring the FRC acquisition in-house to achieve faster
                 delivery, reduced cost, and increased contract competition.




                 Figure 1: Lead Fast Response Cutter – Bernard C. Webber (U.S. Coast Guard).


                 The FRC will perform the same missions as the Island-class
                 110-foot patrol boats, but has key improvements in seakeeping,
                 command and control, and weapon systems (see appendix C for a
                 comparison between the Island-class 110-foot patrol boat and the
                 FRC). The FRC also added a small boat stern launch and recovery
                 system to achieve safer and more efficient operations. The FRC’s
                 small boat is critical to the successful execution of the FRC’s


        U.S. Coast Guard’s Acquisition of the Sentinel Class – Fast Response Cutter

                                          Page 2
         primary missions. It can hold up to five crewmembers and reach
         speeds of 40 knots.

         Additionally, the Coast Guard elected to use a proven design
         (parent craft) to mitigate FRC performance and schedule risk. The
         Coast Guard based the FRC’s design on the Damen 4708, with the
         following modifications:

              •	 Increase of flank speed from 23.8 to 28+ knots;
              •	 Addition of a stern ramp for small boat launch and recovery;
              •	 Modification of propeller design to save weight, reduce
                 complexity, and improve speed;
              •	 Inclusion of watertight bulkheads;
              •	 Modification of electrical systems; and
              •	 Reconfiguration of interior arrangements to enhance
                 habitability, incorporate stern launch, and support increased
                 command, control, communications, computers,
                 intelligence, surveillance, and reconnaissance systems.

         Furthermore, the FRC is being designed and constructed to meet
         the American Bureau of Shipping High Speed Naval Craft rules
         and guidelines, which provide additional assurance that the FRC is
         structurally and mechanically sound.

         In September 2008, the Coast Guard competitively awarded
         Bollinger Shipyards, LLC, an $88.2 million fixed-price contract
         for the detailed design and construction of the first FRC. The
         contract contains six options to build a maximum of 34 cutters,
         worth up to an estimated $1.5 billion. As of September 2011, the
         Coast Guard had exercised three contract options for 12 FRCs at a
         total contract price of $597.3 million. Per the FRC’s Acquisition
         Program Baseline Document, which represents the minimum cost,
         schedule, and performance measures approved by DHS for the
         acquisition, the lead FRC was to be delivered no later than
         December 31, 2011. However, the lead FRC was delivered on
         February 10, 2012, subsequent to the issuance of our draft report.
         The Coast Guard has notified DHS of the schedule breach and is
         currently revising its FRC Acquisition Program Baseline. The
         Coast Guard plans to submit the revised Acquisition Program
         Baseline to DHS for approval by June 2012.

         The Coast Guard has attributed the schedule delay to rework that
         occurred for six FRCs under construction and a protest that was
         filed which required a work stop order for 97 days when the FRC



U.S. Coast Guard’s Acquisition of the Sentinel Class – Fast Response Cutter

                                  Page 3
                     contract was awarded, neither of which was reflected in the
                     Acquisition Program Baseline. Although the Coast Guard
                     modified the contract schedule delivery date to January 30, 2012 to
                     account for these delays, the contractor still delivered the lead FRC
                     11 days late under the modified contract delivery schedule. The
                     Coast Guard has withheld approximately $200,000 from payment
                     against the fixed-price contract for the late delivery. According to
                     the Coast Guard, the contract price will be reduced or other
                     consideration of equal value will be obtained from the contractor
                     for the late delivery, pending a final determination by the
                     Contracting Officer.

                     The FRCs are being built at Bollinger’s Lockport, LA, shipyard,
                     where the Coast Guard has established an onsite project resident
                     office to oversee the project. The Coast Guard plans to procure a
                     total of 58 FRCs to fill its critical patrol boat gap and requested
                     $27.2 million in fiscal year 2012 appropriations to purchase the
                     design and data rights to recompete the contract for the remaining
                     FRCs.

                     We conducted this audit to determine whether the Coast Guard’s
                     oversight of the FRC acquisition ensures that the provisions in the
                     contract reflect the Coast Guard’s stated operational requirements
                     and that the contractor is meeting the contract’s provisions.

Results of Audit
     The Coast Guard’s oversight of the FRC acquisition has helped ensure that the
     provisions of the contract reflect the Coast Guard’s stated operational
     requirements and the contractor is meeting the contract’s provisions. However,
     the Coast Guard’s schedule-driven strategy allowed construction of the FRCs to
     start before operational, design, and technical risks were resolved. Consequently,
     six FRCs under construction needed modification, which increased the total cost
     of the acquisition by $6.9 million and caused schedule delays of at least 270 days
     for each cutter. This aggressive acquisition strategy also allowed the Coast Guard
     to procure 12 FRCs before testing it in actual operations. It is uncertain whether
     the FRC will perform as intended until it completes operational test and
     evaluation in an actual maritime environment.

     The Coast Guard’s Oversight of the Fast Response Cutter
     Contract
            The Coast Guard uses a collaborative approach to oversight. The Coast
            Guard’s project sponsor, project resident office, and technical authorities


            U.S. Coast Guard’s Acquisition of the Sentinel Class – Fast Response Cutter

                                              Page 4
provide direct oversight of the FRC acquisition. This oversight has helped
ensure that the FRC contract reflects the Coast Guard’s stated operational
requirements and that the FRC will be delivered with the capabilities
specified in the contract. However, the Coast Guard cannot determine
how suitable and effective the FRC’s delivered capabilities are at
conducting required Coast Guard missions until the FRC is tested during
operational test and evaluation in an actual maritime environment.

         Contract Reflects Operational Requirements

         Operational requirements specify the desired capabilities of an
         asset and are usually described in an Operational Requirements
         Document. The Operational Requirements Document is intended
         to serve as a source document to a contract’s technical
         specification and supports a host of design activities. Initially, the
         Coast Guard did not develop a formal Operational Requirements
         Document or define the FRC’s critical operational issues prior to
         contract award. Instead, it used a set of Top Level Requirements
         to develop the contract.

         This approach introduced additional risk that some operational
         requirements might not be included in the design. However, the
         Coast Guard mitigated this risk by developing the FRC
         Operational Requirements Document in December 2009. The
         Coast Guard also conducted an Early Operational Assessment in
         2009 to validate that the FRC’s preliminary design met the Coast
         Guard’s needs. Coast Guard technical authority review of the FRC
         design disclosed that enhancements were needed to certain areas of
         the FRC’s structure to further mitigate risks posed by the unique
         missions of the Coast Guard. The Coast Guard modified its
         contract in February 2011 to include the provisions needed to help
         ensure that the FRC would meet its structural requirements for
         mission operations.

         We reviewed and analyzed the Coast Guard’s Operational
         Requirements Document and the contract’s technical specifications.
         The FRC’s operational requirements were reflected in the
         contract’s technical specifications. Therefore, the provisions of the
         contract reflect the Coast Guard’s stated operational requirements.

         Contractor Is Meeting Contract Requirements

         The Coast Guard technical authorities and onsite project resident
         office provide the oversight needed to ensure that the contractor is



U.S. Coast Guard’s Acquisition of the Sentinel Class – Fast Response Cutter

                                  Page 5
              meeting the contract’s provisions. The Coast Guard’s technical
              authorities review and make recommendations on the FRC’s
              design. Project resident office personnel perform contract
              administration and provide technical, production, and logistics
              oversight of the contractor. The technical authorities have
              provided timely review and comments to the contracting officer on
              submitted drawings, calculations, and analysis. Furthermore,
              Coast Guard personnel plan to participate in shipboard tests and
              sea trials to verify the performance of major components and
              systems.

              The contract requires that the design and construction of the FRC’s
              basic hull mirror that of its parent craft used in patrol boat
              operations. It also requires land-based testing of some major
              components and systems, such as the FRC’s main engines. Also,
              the contractor has provided a full-scale mockup of the FRC bridge
              for testing and training purposes.

              The Coast Guard’s oversight of the contractor, as well as the use of
              a parent craft design, land-based testing, and sea trials, helps
              ensure that the FRC will be delivered with the capabilities
              specified in the contract. These requirements establish the basic
              seaworthiness and mechanical soundness of the vessel. However,
              the Coast Guard will not be able to establish how suitable or
              effective the FRC is at conducting the required missions until it is
              tested in actual operations. According to the Coast Guard, it plans
              to complete testing of the FRC in actual operations by March 2013.

The Coast Guard’s Schedule-Driven Procurement Strategy
     The Coast Guard’s use of a schedule-driven procurement strategy has
     allowed it to award contract options for FRCs before operational, design,
     and technical risks were resolved. This strategy also allowed the Coast
     Guard to procure 12 FRCs before operational test and evaluation of the
     lead cutter was completed and before determining the suitability and
     effectiveness of the FRC in meeting the Coast Guard mission needs.

     The Coast Guard’s Major Systems Acquisition Manual specifies that the
     Coast Guard must use a knowledge-based acquisition process. Best
     practices in federal contracting recognize that acquisition strategies should
     be based on knowledge gained at specific milestones. Decision-makers
     should use information gained from milestone meetings to make informed
     acquisition decisions. The Government Accountability Office reports that
     implementing a knowledge-based approach to acquisitions reduces the risk



     U.S. Coast Guard’s Acquisition of the Sentinel Class – Fast Response Cutter

                                       Page 6
of cost, schedule, and quality shortfalls. The Coast Guard’s Major System
Acquisition Manual also generally requires that production be limited to
what is required to minimally sustain production until operational test and
evaluation is completed.

The Coast Guard’s schedule-driven acquisition strategy was reflected in a
November 2006 decision memo, approved by the U.S. Coast Guard
Agency Acquisition Executive, which directed the Coast Guard to pursue
an “expeditious acquisition of patrol boat capability to ameliorate the
current …operating hour shortfall.” This memo further stated that the
“delivery date will be a prime determinant in decisions made throughout
this procurement program.”

The Coast Guard has acknowledged that its aggressive procurement
strategy places the FRC at an increased risk of costly rework. However,
the Coast Guard stated that the need to fill mission-critical shortages in its
patrol boat fleet justified its schedule-driven procurement strategy.
Further, the Coast Guard stated that it has mitigated the risks presented by
its strategy through use of a parent craft design, the American Bureau of
Shipping classification requirements, an Early Operational Assessment,
technical authority involvement in design reviews, and land-based testing
requirements for major FRC components.

However, the Coast Guard’s aggressive procurement strategy allowed the
contractor to start FRC production before the Coast Guard resolved
important issues identified in the Early Operational Assessment, design
reviews, and testing. Further, the Coast Guard’s contract structure limited
its ability to minimize low-rate initial production levels by requiring it to
contract annually for a specified number of FRCs.

         Risks Identified During Early Operational Assessment

         In May and June 2009, the FRC Early Operational Assessment
         identified risks to the FRC’s mission operations. Subject matter
         experts conducted this tabletop exercise to validate that the FRC
         could meet the Coast Guard’s operational needs. However, the
         Coast Guard did not implement two recommendations from the
         Early Operational Assessment to mitigate the risk that the FRC
         would not meet Coast Guard needs before it contracted for 12
         FRCs:

         1.	 The Coast Guard did not operationally assess whether the small
             boat stern launch and recovery system will be able to meet the
             Coast Guard’s needs in actual mission operations. The Coast



U.S. Coast Guard’s Acquisition of the Sentinel Class – Fast Response Cutter

                                  Page 7
              Guard technical authority noted that the FRC stern launch and
              recovery system has limited clearance, which may increase the
              difficulty of recovering the small boat in certain operating
              conditions (see figure 2 for illustration of stern launch system).

         2.	 The Coast Guard did not verify that the FRC is capable of
             stowing all gear (e.g., damage control equipment, onboard
             repair parts, life preservers) required for its safe operation and
             maintenance. The Coast Guard responded to this risk by
             saying, “Due to the nature of lead ship production, although we
             have stowage designs, validation of the stowage arrangement is
             limited until production is completed and onload of outfit can
             occur.”

         If operational test and evaluation shows that the small boat
         interface or the stowage is not effective, the Coast Guard may
         incur additional costly rework and delays.




         Figure 2: FRC stern launch system (U.S. Coast Guard).




U.S. Coast Guard’s Acquisition of the Sentinel Class – Fast Response Cutter

                                  Page 8
                        Risks Identified During Design Review and Testing


                        Additional risk was demonstrated during the FRC Critical Design
                        Review, which is intended to ensure that design is sufficiently
                        mature prior to construction. Once construction has started, any
                        design or technical deficiencies could be significantly more costly
                        and time-consuming to correct.

                        The Coast Guard’s Critical Design Review was approved on
                        December 2, 2009, despite the existence of known design risk. For
                        example, structural details and drawings ranged from 66% to 73%
                        complete, and the FRC’s speed and power analysis had been
                        rejected and returned by the technical authority. The Coast Guard
                        approval memo for Critical Design Review documents a design
                        maturity level of 80%. However, our analysis of design data
                        provided by the Coast Guard’s Office of Naval Engineering
                        disclosed a median design maturity of 71% as of the date of Coast
                        Guard’s Critical Design Review. Design maturity is the term used
                        to describe the percentage of completion of specific engineering
                        and planning drawings or documents. We based our calculation of
                        71% design maturity on the design requirements specified in the
                        contract for Coast Guard approval at Critical Design Review. Both
                        the Government Accountability Office and the U.S. Navy
                        recognize that a mature design prior to the start of construction
                        reduces design risk, enables a more stable construction schedule,
                        and lowers the risk of increased cost. The Government
                        Accountability Office has identified, as an acquisition best
                        practice, that at least 90% of engineering drawings should be
                        completed prior to construction.1 The U.S. Navy requires 85%
                        design maturity as a prerequisite for the start of construction.

                        During Critical Design Review, the technical authorities raised
                        concerns about the structure of the FRC. Although the Coast
                        Guard revised the contract to mitigate these concerns and reflect its
                        requirements, it did not do so until 13 months after Critical Design
                        Review and the award of two contract options. The Coast Guard
                        attributes the 13-month delay primarily to the time required to
                        review the extensive computerized modeling of the FRC structure.
                        The contract required that the FRC structure be designed and
                        constructed according to the American Bureau of Shipping rules.
                        However, the Coast Guard ultimately determined that the
                        American Bureau of Shipping rules and guidelines for structural

1
 GAO-02-701: Capturing Design and Manufacturing Knowledge Early Improves Acquisition Outcome,
July 2002.



               U.S. Coast Guard’s Acquisition of the Sentinel Class – Fast Response Cutter

                                                 Page 9
         design would not sufficiently mitigate risks to the FRC’s structure
         and required structural enhancements to the design of the FRC.
         These structural enhancements were not identified until
         construction of the lead FRC was 80% complete and construction
         of the next three FRCs was more than 50% complete. As a result,
         the contractor had to remove portions of completed construction to
         make the structural design changes. Because the Coast Guard
         requested these changes, the structural modifications will cost an
         additional $6.9 million and delay the delivery of each FRC by at
         least 270 days. According to the Coast Guard, this cost increase is
         well within the funds set aside for antecedent liabilities for
         necessary technical changes normally encountered during the
         design and construction of a lead ship.

         The FRC contract also requires the contractor to certify the main
         diesel engines to the American Bureau of Shipping Naval Vessel
         Rules. In December 2009, before the Coast Guard awarded the
         first option contract, it noted technical issues with the engine
         certification. Additional technical issues with the engine were
         discovered during testing in July 2010. These issues remained a
         risk until September 2011. Between July 2010 and September
         2011, the Coast Guard exercised two contract options that brought
         the number needing refits to 12 engines.

         Contract Structure and Use of Low-Rate Initial Production

         The Coast Guard’s use of a schedule-driven procurement strategy
         allowed it to procure 12 FRCs under low-rate initial production
         and before operational test and evaluation of the lead FRC is
         completed. The FRC’s contract structure limited the Coast
         Guard’s ability to minimize low-rate initial production levels by
         requiring it to contract for a specified number of FRCs annually.
         This also limited the Coast Guard’s ability to mitigate the risk of
         additional costly rework and delays by keeping the number of
         FRCs produced to a minimum during low-rate initial production.

         Low-rate initial production is an acquisition phase, and its approval
         authorizes the contractor to start production. The purpose of low-
         rate initial production is to produce enough quantities of an article
         for operational test and evaluation, to establish an initial
         production base, and to confirm soundness before full-rate
         production. Full-rate production can only officially begin once
         operational test and evaluation is complete. Low-rate initial
         production limits the risk of acquiring new or unproven technology



U.S. Coast Guard’s Acquisition of the Sentinel Class – Fast Response Cutter

                                 Page 10
         by minimizing the number of FRCs produced until its design is
         finalized and the FRC is tested in operational test and evaluation.

         Operational test and evaluation is conducted to determine how well
         the FRC performs its mission assignments and to examine the
         extent to which the FRC is safe, reliable, maintainable, and
         logistically supportable. The results of operational test and
         evaluation also indicate how well the performance measures for
         the acquisition have been satisfied and support the decision to
         move the acquisition into full production.

         The Coast Guard’s contract required delivery of the lead FRC
         within 2 years of contract award. Additionally, the contract
         stipulates that the Coast Guard exercise an option to purchase a set
         number of additional FRCs each fiscal year, or the remainder of
         the contract options will be terminated. The contract allows the
         Coast Guard to purchase three FRCs under option one for low-rate
         initial production, and four or six for every option thereafter under
         full-rate production. This contract structure has limited the Coast
         Guard’s ability to restrict its FRC low-rate initial production to
         fewer than three to four FRCs annually until operational test and
         evaluation is completed and the Coast Guard is certain that the
         FRC will meet its mission needs.

         The Coast Guard has already contracted for 12 FRCs, or 35% of
         the maximum of 34 FRCs that can be acquired under this contract,
         while the acquisition is still in low-rate initial production. The
         Coast Guard has a policy that major acquisitions must set
         individual limits for low-rate initial production. Initially, low-rate
         initial production for the FRC was set at three FRCs. However, by
         October 2010, the Coast Guard had raised the number of FRCs that
         could be acquired under low-rate initial production to 14.

         Best practices have shown that completing operational test and
         evaluation before producing significant quantities substantially
         lowers the risk of costly fixes and retrofits. Thus, making high-
         percentage buys during low-rate initial production increases the
         risk that the FRC will incur costly fixes and retrofits. The U.S.
         Navy has a general practice that only 10% of an acquisition should
         be acquired during low-rate initial production. However, the Coast
         Guard does not have a policy on how many units should be
         acquired under low-rate initial production to mitigate risk.




U.S. Coast Guard’s Acquisition of the Sentinel Class – Fast Response Cutter

                                 Page 11
         If the Coast Guard exercises another contract option prior to the
         completion of operational test and evaluation, it will have
         contracted for at least 16 FRCs under low-rate initial production,
         or 47% of the 34 possible FRCs to be acquired under this contract.
         Additionally, this represents 28% of the total 58 FRCs that the
         Coast Guard plans to acquire. As a result, the Coast Guard risks
         that any deficiencies discovered during operational test and
         evaluation will need to be fixed on a significant number of FRCs
         that are in production or have been delivered.

         The Coast Guard is currently planning to assess the risk related to
         its low-rate initial production decisions by conducting an
         operational assessment prior to delivery of the lead FRC.
         However, construction of the first eight FRCs has already
         significantly advanced. Therefore, this operational assessment is
         limited in its ability to mitigate the risk of cost increases or delays.

         Use of Operational Assessments To Mitigate Risk

         Operational assessments are a recognized method for identifying
         areas of risk and the ability to meet performance goals in
         operations. Operational assessments may focus on a limited set of
         operational requirements and are not required to be conducted in
         realistic maritime environments. Rather, they may be conducted at
         any time throughout the acquisition life cycle using technology
         demonstrators, prototypes, mockups, or simulations. They do not
         substitute for the operational test and evaluation necessary to
         support full-rate production decisions. The U.S. Navy requires that
         an operational assessment be performed to support a low-rate
         initial production decision on major acquisitions.

         Following the initiation of our audit, the Coast Guard requested
         that its independent test agent conduct an operational assessment
         of the lead FRC. According to the Coast Guard, this operational
         assessment is planned to take place over 2 days in early December
         2011, prior to delivery of the lead FRC. Although an operational
         assessment is not a substitute for operational test and evaluation, it
         can reveal problems at a time when they can still be corrected on
         future FRCs. Although this operational assessment may mitigate
         the risk of cost increases or delays to future FRCs, its effectiveness
         is still limited, as construction on the first eight FRCs is
         significantly advanced.




U.S. Coast Guard’s Acquisition of the Sentinel Class – Fast Response Cutter

                                 Page 12
Recommendations

         We recommend that the Assistant Commandant for Acquisitions,
         U.S. Coast Guard:

         Recommendation #1: Ensure that future acquisitions employ a
         knowledge-based acquisition strategy to the maximum extent
         practicable by revising the U.S. Coast Guard’s Major Systems
         Acquisition Manual to allow for a schedule-driven acquisition
         strategy to be employed only when it is properly authorized and
         supported by the results of a risk assessment and cost-benefit
         analysis.

         Recommendation #2: Improve low-rate initial production
         decisions for the U.S. Coast Guard Surface Acquisition programs
         by issuing a policy memorandum that requires that it achieve a
         specific level of design maturity at Critical Design Review.

         Recommendation #3: Issue a policy memorandum that requires
         authorization to proceed with low-rate initial production be
         supported by the reported results of operational assessments.

         Recommendation #4: Revise the Coast Guard’s acquisition
         policy to require a documented risk assessment when low-rate
         initial production quantity exceeds 10%, or other Coast Guard
         established minimum, of the total quantity approved for the
         acquisition.

         Recommendation #5: Mitigate risk by executing plans for an
         operational assessment prior to delivery of the lead FRC and take
         immediate action to implement recommendations from the
         operational assessment. Any recommendations not implemented
         should be supported by the results of a risk assessment and cost-
         benefit analysis.

Management Comments and OIG Analysis
         The Coast Guard provided comments on the draft of this report. A
         copy of the response in its entirety is included in appendix B. The
         Coast Guard also provided technical comments and suggested
         revisions to our report in a separate document, which the Coast
         Guard stated was not intended to be included with its official
         comments on the draft of this report. We reviewed the Coast




U.S. Coast Guard’s Acquisition of the Sentinel Class – Fast Response Cutter

                                 Page 13
         Guard’s technical comments and made changes throughout our
         report where appropriate.

         Management Comments to Recommendation #1

         Partially Concur. The Coast Guard stated that although the FRC
         acquisition has an aggressive schedule, it properly followed the
         Coast Guard and DHS “knowledge based” acquisition
         management policies and processes. The Coast Guard agrees that
         schedule-driven acquisition strategies should be employed only
         when properly authorized and supported by the results of a risk
         assessment and cost-benefit analysis.

         OIG Analysis

         As discussed in our report, the FRC acquisition strategy employed
         an aggressive acquisition schedule and the contract required the
         annual award of options for either three or four cutters to avoid
         contract termination. This strategy served to diminish the
         usefulness of knowledge gained at specific milestones for
         acquisition investment decisions, as the Coast Guard had to either
         award the annual contract options for the set number of cutters or
         terminate the contract. The Coast Guard stated it will work with
         DHS Program Accountability and Risk Management to consider
         promulgating future guidance, as appropriate, to meet the intent of
         the recommendation. The Coast Guard needs to ensure it has a
         process in place to prevent future acquisitions that may employ a
         similarly aggressive acquisition strategy from being approved until
         supported by the results of a risk assessment and cost-benefit
         analysis.

         We consider this recommendation to be unresolved and open. This
         recommendation will remain unresolved until the Coast Guard
         provides us with an action plan to promulgate such guidance that
         includes responsible officials and the targeted completion date.

         Management Comments to Recommendation # 2

         The Coast Guard separated its comments to recommendation 2, as
         presented in the draft report, into three distinct responses to more
         effectively address the OIG intent. Therefore, we have separated
         our original recommendation number 2 into recommendations 2
         (2.1), 3 (2.2), and 4 (2.3), and recommendation 3 into
         recommendation 5.



U.S. Coast Guard’s Acquisition of the Sentinel Class – Fast Response Cutter

                                 Page 14
         Partially Concur. The Coast Guard recognized that design
         maturity is an important element of reducing acquisition risk. The
         Coast Guard also acknowledged that, as a general rule of thumb,
         the design should be approximately 85% complete at Critical
         Design Review.

         OIG Analysis

         As discussed in our report, both the Government Accountability
         Office and the Department of the Navy recognize that completion
         of a mature design prior to the start of construction has proven to
         reduce design risks, reduce the risk of cost increases, and enable a
         more stable construction schedule. Both the Government
         Accountability Office and the Department of the Navy recommend
         that shipbuilding programs meet a specified “rule of thumb” level
         of design maturity prior to construction. The intent of the
         recommendation is that the Coast Guard develop similar “rule of
         thumb” polices for its ship acquisition programs. The Coast Guard
         has stated that it agrees with the intent of this recommendation and
         will work with DHS Program Accountability and Risk
         Management to promulgate future guidance, as appropriate, to
         meet the intent of this recommendation.

         We consider this recommendation to be unresolved and open. This
         recommendation will remain unresolved until the Coast Guard
         provides us with an action plan to promulgate such guidance that
         includes responsible officials and the targeted completion date.
         This recommendation will remain open until we receive and
         review Coast Guard guidance issued to address the
         recommendation.

         Management Comments to Recommendation # 3

         Partially Concur. The Coast Guard stated it agrees with the intent
         but not the mandatory requirement to complete an Operational
         Assessment prior to Critical Design Review for all acquisitions and
         relies on the DHS Director of Operational Test and Evaluation
         (DOT&E) to establish test and evaluation policy. The Coast Guard
         further noted that an Early Operational Assessment is appropriate
         for Critical Design Review assessments, and stated that an
         Operational Assessment needs to have an asset on hand to
         complete the assessment. The Coast Guard also stated that an
         Early Operational Assessment for the FRC was conducted in June



U.S. Coast Guard’s Acquisition of the Sentinel Class – Fast Response Cutter

                                 Page 15
         2009 and that a follow on Operational Assessment was completed
         February 3, 2011, on the lead ship prior to acceptance.

         OIG Analysis

         The Coast Guard’s Major Systems Acquisition Manual does not
         provide a specific definition for either Early Operational
         Assessment or Operational Assessment. Consistent with
         Department of the Navy definitions, we consider Operational
         Assessments to include Early Operational Assessments and do not
         differentiate between the two for the purposes of this
         recommendation. Further, although the Coast Guard’s Major
         Systems Acquisition Manual indicates that the conduct of either an
         Early Operational Assessment or an Operational Assessment is an
         elective, rather than mandatory requirement, the Major Systems
         Acquisition Manual also indicates that both are intended to assess
         how well the design is expected to provide the desired operational
         capability and are used to support low-rate initial production
         decisions, as appropriate. Given the complex nature and
         considerable expense associated with shipbuilding, the Coast
         Guard should require its shipbuilding acquisition programs to
         assess how well the design is expected to meet its needed
         operational capabilities prior to committing to production to further
         reduce the risk of schedule delays and cost increases resulting from
         design changes. The Coast Guard has stated it will work with the
         DHS DOT&E to promulgate future guidance, as appropriate, to
         meet the intent of this recommendation.

         We consider this recommendation to be unresolved and open. This
         recommendation will remain unresolved until the Coast Guard
         provides us with an action plan to promulgate such guidance that
         includes responsible officials and the targeted completion date and
         we review Coast Guard guidance issued to address the
         recommendation.

         Management Comments to Recommendation # 4

         Concur. The Coast Guard agrees that low-rate initial production
         decisions that exceed 10% of the full production quantities should
         be supported by a documented risk assessment. It noted that DHS’
         low-rate initial production policy has been revised recently to limit
         the production quantities and the Coast Guard Major Systems
         Acquisition Manual is being revised to reflect the DHS policy.




U.S. Coast Guard’s Acquisition of the Sentinel Class – Fast Response Cutter

                                 Page 16
         OIG Analysis

         We consider the ongoing action to be responsive to the
         recommendation and the recommendation resolved. However, this
         recommendation will remain open until we receive and review a
         copy of the revised Major Systems Acquisition Manual with the
         updated low-rate initial production policy.

         Management Comments to Recommendation # 5

         Concur. The Coast Guard concurred with our recommendation to
         execute plans for an Operational Assessment prior to the delivery
         of the lead FRC and to take immediate actions to implement any
         recommendations from the Operational Assessment. It noted that
         an Operational Assessment was recently completed prior to the
         lead FRC acceptance and a report will be delivered in 2012.

         OIG Analysis

         We consider the actions taken by the Coast Guard to be responsive
         to the recommendation and the recommendation resolved.
         However, the recommendation will remain open until we receive
         and review a copy of the Operational Assessment report and Coast
         Guard verification that recommendations in the Operational
         Assessment report have been implemented.




U.S. Coast Guard’s Acquisition of the Sentinel Class – Fast Response Cutter

                                 Page 17
Appendix A
Purpose, Scope, and Methodology

                     We conducted this audit to determine whether the Coast Guard’s
                     oversight of the FRC acquisition ensures that (1) the provisions in
                     the contract reflect the Coast Guard’s stated operational
                     requirements; and (2) the contractor is meeting the provisions in
                     the contract.

                     We reviewed departmental, federal, and Coast Guard acquisition
                     policies and processes, acquisition decisions, and other
                     memorandums. These included the Department of Homeland
                     Security (DHS) Acquisition Directive 102-01, DHS Acquisition
                     Instruction/Guidebook 102-01-001, DHS Directive 026-06, Test
                     and Evaluation, the Coast Guard Major Systems Acquisition
                     Manual, the Coast Guard Requirements Generation and
                     Management Process(Pub 7-7) Manual, and the Department of the
                     Navy, Commander, Operational Test and Evaluation Force Test
                     Director’s Manual.

                     We also reviewed the FRC contract, the FRC Operational
                     Requirements Document, the approved Top Level Requirements
                     for the FRC, and the approved FRC Acquisition Program Baseline.
                     To determine design maturity, we reviewed the percentage
                     completion of all contract data requirement list drawings, analysis,
                     and calculations required by the contract at Critical Design
                     Review. We also reviewed documentation produced from design
                     reviews and production meetings, as well as Coast Guard technical
                     authority design review comments. We reviewed the updated
                     integrated master schedule, budget requests, and cost estimates for
                     the project, and we analyzed progress payments to the contractor.

                     We relied on computer-processed data provided by the Coast
                     Guard to calculate median design maturity and technical authority
                     comment response days. We performed analytical procedures to
                     identify anomalies in reported dates and determined that the data
                     contained date anomalies of less than 1%. We also judgmentally
                     sampled 20% of the items and confirmed the reported degree of
                     maturity for each item against corroborating documentation to
                     verify the accuracy of reported design maturity.

                     We visited the project resident office in Lockport, LA, and
                     observed Coast Guard oversight of FRC construction, a mockup of
                     the pilothouse, rework conducted to enhance the FRC structure,
                     and ongoing construction of the FRCs.




            U.S. Coast Guard’s Acquisition of the Sentinel Class – Fast Response Cutter

                                             Page 18
Appendix A
Purpose, Scope, and Methodology

                     We interviewed senior Coast Guard Acquisition Directorate
                     officials, the Coast Guard technical and support authorities,
                     program and project managers, and contracting and acquisition
                     officials responsible for the management, oversight, and execution
                     of the acquisition of the FRC. We also interviewed representatives
                     of the American Bureau of Shipping, the U.S. Navy’s Naval Sea
                     Systems Command, and Commander, Operational Test and
                     Evaluation Force.

                     We conducted this performance audit between June 2011 and
                     October 2011 pursuant to the Inspector General Act of 1978, as
                     amended, and according to generally accepted government
                     auditing standards (GAGAS), except that we identified an
                     impairment to our independence in appearance. Following
                     completion of our audit, it came to our attention that a family
                     member of a senior OIG official was employed by an entity
                     associated with this audit. We took steps to re-evaluate the
                     evidence supporting our findings and conclusions. In our opinion,
                     the impairment to our independence in appearance did not affect
                     the findings and conclusions developed during this audit.

                     GAGAS requires that we plan and perform the audit to obtain
                     sufficient, appropriate evidence to provide a reasonable basis for
                     our findings and conclusions based upon our audit objectives. We
                     believe that the evidence obtained provides a reasonable basis for
                     our findings and conclusions based upon our audit objectives, and
                     that the impairment to our independence in appearance did not
                     affect this evidence or any findings and conclusions.

                     We would like to thank the Coast Guard, the American Bureau of
                     Shipping, and the U.S. Navy for the cooperation and courtesies
                     extended to our staff during this audit.




            U.S. Coast Guard’s Acquisition of the Sentinel Class – Fast Response Cutter

                                             Page 19
Appendix B
Management Comments to the Draft Report




           U.S. Coast Guard’s Acquisition of the Sentinel Class – Fast Response Cutter 


                                             Page 20

Appendix B
Management Comments to the Draft Report




           U.S. Coast Guard’s Acquisition of the Sentinel Class – Fast Response Cutter 


                                             Page 21

Appendix B
Management Comments to the Draft Report




           U.S. Coast Guard’s Acquisition of the Sentinel Class – Fast Response Cutter 


                                             Page 22

Appendix C
Comparison of Island-Class Patrol Boat and Fast Response Cutter

                                                          110' Island-Class Patrol           154' Sentinel Class
                     Attribute
                                                                    Boat                    Fast Response Cutter
                    Service Life                                     20 years                           20 years
                    Flank Speed                                      28 knots                         28 knots
                                                              1,900 nautical miles at          2,500 nautical miles at
                  Fuel Endurance
                                                                     15 knots                         15 knots
                                                              1,800 operational hours          2,500 operational hours
                Operational Tempo
                                                                     per year.                        per year
Seakeeping Capabilities (sea state) for Operations                 Up to 8 feet                  8.2 feet to 13 feet

Seakeeping Capabilities (sea state) for Survivability              Up to 15 feet                19.7 feet to 29.5 feet
                                                         Single-point crane boat          Stern ramp launch and
                                                         launch and recovery              recovery
            Small Boat Launch System
                                                         Minimum five-person              Maximum three-person
                                                         operation                        operation
                                                                                          SEAWATCH: Integrated
                                                         Stand-alone surface search
                                                                                          charting, Automatic
                                                         radar, Automatic
                                                                                          Identification System, radar,
                                                         Identification System,
                                                                                          common shared tactical
                                                         Forward-Looking Infrared
                                                                                          display, and enhanced electro­
                                                         Radar, and electronic charting
                                                                                          optical/infrared search system
                                                         No Secret Internet Protocol      Classified local area network
                                                         Routing Network capability       with Secret Internet Protocol
Command, Control, Communications, Computers,                                              Routing chat messaging
           and Intelligence Suite
                                                         Stand-alone High Frequency,
                                                         Very High Frequency, Ultra       Integrated external and
                                                         High Frequency                   internal voice
                                                         communication.                   communications suite

                                                         Limited, short-term 128 Kilo
                                                                                          Full 256 Kilo bits per second
                                                         bits per second underway
                                                                                          underway 24/7 connectivity
                                                         connectivity
                                                         18'3" length, 7'5" beam          26' length, 9' beam
                                                         Two-person crew. One             Two-person crew. Shock-
                                                         traditional seat for operator    mitigated seating for five,
                                                         with seating along air-filled    additional four inside
                                                         sponson for an additional six.   gunwales.
                                                         28 knots maximum speed in        40 knots maximum speed in
                    Small Boat                           calm seas                        calm seas
                   (Cutter Boat)                                                          Very High Frequency and
                                                         Handheld Very High
                                                                                          High Frequency voice
                                                         Frequency voice
                                                                                          communications, integrated
                                                         communications only
                                                                                          radar, and electronic charting
                                                         Not normally operated out of     200 nautical mile range.
                                                         cutter’s sight due to limited    Capable of operating over the
                                                         communications and               horizon from the cutter.
                                                         navigation capability.
                                                         One 25 millimeter cannon         One 25 millimeter cannon
                                                         Mark38 Modification 1,           Mark38 Modification 2, gyro-
                                                         crew-served weapon with          stabilized remote-operated
                 Combat Systems                          traditional sight                weapon with Electro­
                                                                                          Optical/Infrared targeting
                                                                                          sensor
                                                         Two .50 caliber machine guns     Four .50 caliber machine guns
                     Crew Size                           16                               24
     Independent Operation (number of days)              5 days                           5 to 7 days




               U.S. Coast Guard’s Acquisition of the Sentinel Class – Fast Response Cutter 


                                                        Page 23

Appendix D
Major Contributors to This Report

                     Brooke Bebow, Director
                     Maryann Pereira, Audit Manager
                     Tristan Weir, Program Analyst
                     Dawn E. Pizarro, Senior Auditor
                     Johnson Joseph, Auditor
                     John Jadick, Program Analyst
                     Ebenezer Jackson, Program Analyst
                     Katrina Bynes, Referencer
                     Ashley Smith, Referencer




            U.S. Coast Guard’s Acquisition of the Sentinel Class – Fast Response Cutter

                                             Page 24
Appendix E
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      United States Coast Guard

                      Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




             U.S. Coast Guard’s Acquisition of the Sentinel Class – Fast Response Cutter 


                                               Page 25

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
